APPENDICES

1a
APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-14430
Non-Argument Calendar
D.C. Docket Nos. 6:16-cv-01143-JA-KRS,
6:05-00144-JA-KRS-1
JAMES AVERY, JR.,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Florida
(June 30, 2020)
Before JORDAN, JILL PRYOR and NEWSOM, Circuit Judges.
PER CURIAM:
James Avery, Jr., a federal prisoner, appeals the
district court’s denial of his 28 U.S.C. § 2255 motion to
vacate, which he filed after this Court granted him authorization to file a second or successive such motion.
Avery argues that the district court erred in concluding
that he was ineligible for relief under Johnson v. United States, 135 S. Ct. 2551 (2015), from his Armed Ca-

2a
reer Criminal Act (“ACCA”) sentence. After careful
review, we affirm.1
I.

BACKGROUND

A jury convicted Avery in 2005 of knowingly possessing a firearm as a convicted felon, in violation of
18 U.S.C. § 922(g). Avery’s presentence investigation
report (“PSR”) recommended that he receive an enhanced sentence under ACCA. ACCA requires a minimum 15-year prison sentence whenever a § 922(g) defendant has three prior “violent felony” or serious drug
convictions. See 18 U.S.C. § 924(e). (Otherwise, the
maximum sentence for a § 922(g) offense is 10 years.)
Avery’s PSR listed, among others, convictions in 1978
for Georgia armed robbery, Georgia robbery, and
Georgia burglary, and in 1987 for Florida armed burglary and robbery with a firearm, committed on the
same occasion. The PSR did not, however, specify
which of Avery’s prior convictions it relied on in determining that he was subject to the ACCA enhancement.
At the time of Avery’s sentencing, ACCA provided
three definitions of “violent felony.” The “elements
clause” covered any offense that “has as an element the
use, attempted use, or threatened use of physical force
against the person of another.”
18 U.S.C.
§ 924(e)(2)(B)(i). The next subsection in the statute
contained the other two definitions.
See id.
§ 924(e)(2)(B)(ii). That subsection defined “violent felony” as any offense that “is burglary, arson, or extortion,
involves use of explosives, or otherwise involves conduct that presents a serious potential risk of physical
injury to another.” The first 9 words made up the
1

Avery’s motion for substitution of counsel is DENIED.

3a
“enumerated crimes clause,” and the last 15 comprised
the catchall “residual clause.” The enumerated crimes
clause encompassed (and still encompasses) only “generic” versions of the listed offenses—that is, offenses
comporting with the way “in which the term [i.e., burglary] is now used in the criminal codes of most
[s]tates.” Taylor v. United States, 495 U.S. 575, 598
(1990). Avery’s PSR did not specify which ACCA
clause or clauses supported the enhancement.
Avery objected to the ACCA enhancement on the
ground that the government had failed to prove he was
the person who committed the crimes listed in the PSR.
At sentencing, the district court admitted certified copies of records of several of Avery’s convictions—socalled Shepard documents2—including, as relevant to
this appeal, his 1978 Georgia armed robbery conviction.
The government also presented extensive testimony
and numerous exhibits demonstrating that Avery was
the person who committed the crimes listed in the
PSR’s criminal history section.
The district court overruled Avery’s objections,
adopted the PSR, and imposed the ACCA enhancement. The court stated that the enhancement was
based on the Georgia robbery and armed robbery convictions and the Florida armed burglary conviction.3
The court did not specifically discuss which “violent felony” definition encompassed these convictions. The
court sentenced Avery to 210 months’ imprisonment.

2
3

See Shepard v. United States, 544 U.S. 13, 26 (2005).

The district court erroneously stated that this burglary conviction was from Georgia, but there is no dispute that it is from
Florida.

4a
Avery appealed, challenging his ACCA conviction
on the basis that the district court erred by applying it
based on prior convictions that were neither admitted
nor proven to a jury beyond a reasonable doubt. This
Court rejected Avery’s arguments on appeal. See
United States v. Avery, 205 F. App’x 819, 820, 825-26
(11th Cir. 2006) (unpublished).
After Avery’s first § 2255 motion—which involved
claims not related to the one at issue here—was rejected, the Supreme Court decided Johnson, in which it
struck down ACCA’s residual clause definition of “violent felony” as unconstitutionally vague. 135 S. Ct. at
2557, 2563; see also Welch v. United States, 136 S. Ct.
1257, 1268 (2016) (explaining that Johnson’s holding is
retroactively applicable to cases on collateral review).
Avery sought authorization in this Court to file a second or successive § 2255 motion based on Johnson. See
28 U.S.C. § 2244(b)(3). We granted him that authorization, and he filed his motion to vacate in the district
court. In support of that motion, Avery argued that it
was more likely than not that the sentencing court relied on ACCA’s residual clause when determining that
his Georgia robbery and armed robbery and Florida
armed burglary convictions were ACCA predicate offenses. He also argued that under this Court’s precedent, see United States v. Canty, 570 F.3d 1251 (11th
Cir. 2009), the government had waived reliance on any
of his other prior convictions to support the ACCA enhancement.
The government opposed Avery’s motion. As relevant to this appeal,4 the government argued that this
4

The government also argued that Avery had procedurally
defaulted his Johnson claim by failing to challenge the validity of
ACCA’s residual clause during his sentencing and on direct appeal,

5a
Court’s decision in Beeman v. United States, 871 F.3d
1215 (11th Cir. 2017), precluded Avery’s claim. In
Beeman, which was decided during Avery’s § 2255 proceedings in the district court, this Court held that a
§ 2255 movant has the burden of proving a Johnson
claim by showing that (1) the sentencing court “relied
solely on the residual clause” in imposing the ACCA
enhancement and (2) “there were not at least three
other prior convictions that could have qualified under
either” of ACCA’s other clauses as a violent felony, or
as a serious drug offense. Id. at 1221. The “key question” is the “historical fact” of whether the defendant
was “sentenced solely per the residual clause.” Id. at
1224 n.5. The government argued that Avery failed to
prove either of these elements. First, it argued, the
record was silent as to which ACCA clause the sentencing court relied on. Second, the government asserted,
six of Avery’s prior convictions qualified as ACCA
predicates post-Johnson.
The district court denied Avery’s motion. The district court found that Avery had failed to satisfy either
of Beeman’s two requirements. Specifically, the court
determined that Avery had at least three qualifying
predicate convictions under portions of ACCA’s violent
felony definition unaffected by Johnson, rejecting
Avery’s argument that Canty prevented the government’s reliance on alternate predicate offenses. These
valid predicates, the court found, included his Florida
robbery with a firearm conviction, his Georgia armed
robbery conviction, and his Georgia burglary convicand that he could not show cause and prejudice to overcome the
default. The district court did not decide Avery’s motion on procedural default grounds, and we need not do so either because
Avery’s claim for relief fails on the merits.

6a
tion. Only the second of these was expressly determined to be an ACCA predicate at Avery’s sentencing.
Avery appealed, and this Court granted him a certificate of appealability on whether he met his burden
to demonstrate entitlement to relief under Johnson.
II. STANDARD OF REVIEW
In reviewing the district court’s denial of a § 2255
motion, we review de novo the court’s legal conclusions
and review for clear error the court’s factual findings.
Spencer v. United States, 773 F.3d 1132, 1137 (11th Cir.
2014) (en banc).
III. DISCUSSION
Avery challenges the district court’s denial of his
motion, arguing that he satisfied both prongs of Beeman. First, he argues that he met his burden to show
it is more likely than not that the sentencing court relied solely on ACCA’s residual clause when determining that his Florida armed burglary conviction was a
violent felony. Second, he contends that none of his
other prior convictions qualify under any still-valid
ACCA “violent felony” definition. He argues that the
district court erred in concluding that his Georgia
armed robbery and burglary convictions qualified as
ACCA predicates notwithstanding Johnson.5 Because
we disagree with Avery’s second argument, we conclude that he failed to satisfy Beeman, and we do not
address his first argument.
5

This Court has rejected Avery’s argument that the government waives reliance on other prior convictions to support the
ACCA by failing to raise them at sentencing. See Tribue v. United
States, 929 F.3d 1326, 1332 (11th Cir. 2019).

7a
As a preliminary matter, Avery acknowledges that
any challenge to the district court’s conclusion that his
Florida robbery with a firearm conviction qualifies as
an ACCA predicate even after Johnson is foreclosed by
Supreme Court precedent. See Stokeling v. United
States, 139 S. Ct. 544 (2019). We therefore do not address that conviction further. As to the burglary conviction, Avery argues that the Georgia statute criminalizing burglary in effect in 1978 when he was arrested
did not require the use, attempted use, or threatened
use of physical force—and so could not qualify under
ACCA’s elements clause—and was categorically too
broad to satisfy the definition of burglary as enumerated in ACCA. Avery’s argument is foreclosed by this
Court’s decision in United States v. Gundy, 842 F.3d
1156 (11th Cir. 2016), which held that a virtually identical later version of Georgia’s burglary statute qualified
as a predicate under ACCA’s enumerated crimes
clause. In Gundy, this Court held that Georgia’s burglary statute, though broader than the generic definition of burglary, sets out separate crimes based on the
location the defendant entered (a dwelling, building,
railroad car, vehicle, or watercraft), some of which qualify as ACCA predicates. Id. at 1167-68.6 Avery does
not dispute that the burglary of which he was convicted
involved burglary of a “building[] housing a business,”
which, this Court held in Gundy, satisfies ACCA’s definition. Id. at 1168-69. Thus, Avery has not demonstrated that the district court erred in concluding that
6

We acknowledge that the Fourth Circuit recently disagreed
with Gundy and held that Georgia’s burglary statute is categorically overbroad and therefore not a valid ACCA predicate. See
United States v. Cornette, 932 F.3d 204, 213-15 & n.2 (4th Cir.
2019). We, of course, are bound to follow Gundy. See United
States v. Brown, 342 F.3d 1245, 1246 (11th Cir. 2003).

8a
his Georgia burglary conviction qualified as an ACCA
predicate notwithstanding Johnson.
That leaves Avery’s Georgia armed robbery conviction. Avery acknowledges that the statute under
which he was convicted delineates a series of separate
robbery crimes, including robbery by intimidation. See
Holcomb v. State, 198 S.E.2d 179, 180 (Ga. 1973) (citing
1968 Ga. Laws 1249). And the charging document,
which the government introduced into evidence without objection at sentencing, demonstrated that Avery
committed robbery by intimidation. Robbery by intimidation requires the threatened use of physical force
and therefore satisfies ACCA’s elements clause. See In
re Sams, 830 F.3d 1234, 1239 (11th Cir. 2016) (construing the federal bank robbery statute, 18 U.S.C.
§ 2113(a)). Avery’s Georgia robbery conviction thus
qualifies as a predicate under ACCA’s elements clause,
and the district court did not err in relying on it.
Even assuming Avery satisfied Beeman’s first
prong, he failed to meet his burden to show that he
lacked at least three prior convictions that qualified as
ACCA predicates notwithstanding Johnson. See Beeman, 871 F.3d at 1221. He therefore is not entitled to
relief on his § 2255 motion. See id.
IV. CONCLUSION
For the foregoing reasons, we affirm the judgment
of the district court.
AFFIRMED.

9a
APPENDIX B
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
Case No: 6:16-cv-1143-Orl-28KRS
JAMES AVERY, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
Filed August 21, 2018
OPINION AND ORDER
This case is before the Court on Petitioner James
Avery, Jr.’s (“Petitioner’s” or “Avery’s”) Successive
Motion to Vacate, Set Aside, or Correct an Illegal Sentence pursuant to 28 U.S.C. § 2255 and supporting
memorandum of law (Doc. 1; Doc. 12). As the sole
ground for relief in his successive § 2255 motion, Avery
asserts that he was sentenced under the residual clause
of the Armed Career Criminal Act in violation of Johnson v. United States, 135 S. Ct. 2551 (2015).
The Government filed a response to the § 2255 motion (Doc. 19). Avery filed a reply (Doc. 25). Thereafter, at this Court’s direction, Avery filed a supplemental memorandum (Doc. 29), and Respondent filed a
supplemental response (Doc. 31). For the following
reasons, the Court concludes that Avery is not entitled
to relief.

10a
I.

BACKGROUND AND PROCEDURAL HISTORY

On August 30, 2005, a grand jury returned a onecount indictment alleging that Avery was a convicted
felon in possession of a firearm and an armed career
criminal, in violation of 18 U.S.C. §§ 922(g)(l) and 924(c)
(Cr. Doc. 1).7 The indictment listed four prior felonies
that qualified Avery as an armed career criminal:
On December 11, 1987, a conviction for Armed
Burglary, Grand Theft of a Firearm, Robbery with a Firearm, and Grand Theft of
Property, in the Circuit Court, Eighteenth Judicial Circuit, in and for Brevard County, Florida, Case Number 87-3216-CF-A;

7

Federal law prohibits convicted felons from shipping, possessing, or receiving firearms in or affecting interstate commerce.
18 U.S.C. § 922(g)(l). Ordinarily, an individual who violates this
prohibition faces a statutory maximum sentence of ten years’ imprisonment. 18 U.S.C. § 924(a). However, a statutory provision
known as the “Armed Career Criminal Act” or “ACCA” imposes a
higher mandatory minimum term of imprisonment for certain offenders. Any person who violates Section 922(g) and has on three
or more occasions been convicted for a “serious drug offense” or
“violent felony” will receive a mandatory minimum sentence of
fifteen years’ imprisonment. 18 U.S.C. § 924(e)(l).
When Petitioner was sentenced in 2005, the ACCA defined a
violent felony as any crime punishable by imprisonment for a term
exceeding one year that: (1) “has as an element the use, attempted
use, or threatened use of physical force against the person of another”; (2) “is burglary, arson, or extortion, involves use of explosives”; or (3) “otherwise involves conduct that presents a serious
potential risk of physical injury to another.” § 924(e)(2)(B). These
definitions of violent felony fall into three respective categories: (1)
the elements clause; (2) the enumerated-offenses clause; and (3)
and the now-void residual clause. See In re Sams, 830 F.3d 1234,
1236-37 (11th Cir. 2016).

11a
On February 20, 1978, a conviction for Armed
Robbery, in the Superior Court, in and for Fulton County, Georgia, Case Number A-38641;
On February 20, 1978, a conviction for Robbery, in the Superior Court, in and for Fulton
County, Georgia, Case Number A-38642; and
On February 20, 1978, a conviction for Burglary, in the Superior Court, in and for Fulton
County, Georgia, Case Number A-38643.
(Id. at 1-2) (emphases in original). A jury convicted
Avery as charged (Cr. Doc. 58).
Prior to Avery’s sentencing hearing, the United
States Probation Office prepared a Pre-Sentence Investigation Report (“PSI”) that set forth a lengthy list
of Avery’s prior criminal convictions (PSI at ¶¶ 39-63).
In addition to the four prior qualifying violent felonies
set forth in the indictment, the PSI also listed two Alabama second-degree burglary convictions as qualifying
predicates (Id. at ¶¶ 39, 42). The Probation Office recommended that Avery be sentenced as an armed career
criminal (Id. at ¶ 27). Avery objected to the armed career criminal designation because “[h]e believe[d] that
there [was] insufficient proof to prove [the underlying]
convictions by way of appropriate court records being
fingerprint records from the state of Alabama and the
state of Georgia.” (Cr. Doc. 88 at 5). Specifically, he
urged that, for each ACCA-qualifying conviction, his
identity needed to be proven to a jury beyond a reasonable doubt (Id. at 7).
After hearing the evidence and arguments advanced by the parties, the Court overruled Avery’s
identity-based objections, concluding that the government proved his convictions by a preponderance of the

12a
evidence (Cr. Doc. 89 at 27). The Court found that
Avery qualified for an enhanced sentence, specifying
that “the convictions that qualify [for an enhancement]
are listed in the presentence report at paragraphs 43,
44 and 46.” (Id.).8 The Court made no further findings
as to whether Avery’s other convictions also qualified
under the ACCA. The Court sentenced Avery as an
armed career criminal to 210 months in prison (Id. at
29). The Eleventh Circuit affirmed Avery’s conviction
and sentence. United States v. Avery, 205 F. App’x 819
(11th Cir. 2006).
Avery’s first 28 U.S.C. § 2255 motion was denied on
April 2, 2010 (Cr. Doc. 103). Subsequently, on June 26,
2015, the United States Supreme Court decided Johnson v. United States. In Johnson, the Supreme Court
held that “imposing an increased sentence under the
residual clause of the Armed Career Criminal Act violates the Constitution’s guarantee of due process[.]” 135
S. Ct. at 1563. Thus, the Court struck down that portion of the ACCA. However, the Court also emphasized that its “decision does not call into question application of the Act to the four enumerated offenses, or
the remainder of the Act’s definition of a violent felony.” Id. Thereafter, the Supreme Court held that
Johnson announced a new substantive rule that applies
retroactively to cases on collateral review. Welch v.
United States, 136 S. Ct. 1257, 1264-65 (2016). On June
20, 2016, the Eleventh Circuit Court of Appeals determined that Avery had made a prima facie showing that
he falls within the scope of Johnson’s new substantive

8

These corresponded to Georgia state convictions for armed
robbery and robbery, and a Florida conviction for armed robbery
(Cr. Doc. 89 at 27-28; PSI at ¶¶ 43, 44, 46).

13a
rule, and he was granted leave to file a second 28 U.S.C.
§ 2255 motion (Cr. Doc. 108).
On June 25, 2016, Avery filed the instant § 2255
motion, and on May 10, 2017, he filed a memorandum in
support of the motion (Doc. 1; Doc. 16). In Avery’s
supporting memorandum, he argued that his prior convictions did not qualify under the elements or enumerated clauses of the ACCA (Doc. 16). Specifically, Avery
urged that his 1972 and 1974 Alabama second-degree
burglary convictions did not meet the elements clause
of the ACCA and also did not fall under the enumerated clause because “Alabama law defined second-degree
burglary more broadly than the Taylor generic burglary definition.” (Id. at 12). He also urged that Florida
armed robbery did not qualify as a violent felony under
the ACCA, despite binding Eleventh Circuit precedent
holding otherwise (Id. at 16). Next, Avery argued that
a 1977 Georgia burglary conviction no longer qualified
as a violent felony under the ACCA because “Georgia
burglary is non-generic and indivisible as to the type of
structure.” (Id. at 27). Finally, Avery urged that his
1977 Georgia convictions for robbery and armed robbery and 1987 Florida conviction for armed burglary no
longer qualified as violent felonies under the ACCA (Id.
at 32-35). In making his arguments, Avery relied
heavily on the Supreme Court’s 2013 decision in
Descamps v. United States, 570 U.S. 254 (2013).
Upon review of Avery’s § 2255 motion and supporting memorandum and in light the intervening Eleventh
Circuit opinion in Beeman v. United States, 871 F.3d
1215 (11th Cir. 2017), this Court asked Avery to explain
how his successive § 2255 motion fell within the purview of Johnson. The Court noted that:

14a
Beeman involved a successive § 2255 motion
that, like the instant § 2255 motion, purported
to rely on Johnson v. United States, 135 S. Ct.
2551 (2015), but was dismissed because the district court found it was actually based on
Descamps v. United States, 570 U.S. 254 (2013).
Beeman, 871 F.3d at 1218-19. The Beeman
panel clarified that a claim based on Descamps
would not trigger the one-year limitations provision of 28 U.S.C. § 2255(£)(3), but a claim
based on Johnson would. Id. at 1220. To distinguish between the two, the panel explained
that “[a] Johnson claim contends that the defendant was sentenced as an armed career
criminal under the residual clause, while a
Descamps claim asserts that the defendant was
incorrectly sentenced ... under [the other]
clause[s].” Id.
The Beeman decision requires this Court to determine whether Petitioner’s § 2255 motion
raises a Johnson claim or a Descamps claim.
Therefore, the Court must evaluate whether
Petitioner “contends that [he] was sentenced ...
under the [ACCA’s] residual clause.” Beeman,
871 F .3d at 1220. Petitioner bears the burden
of establishing” that his sentence enhancement
turned on the validity of the residual clause. In
other words, he must show that the clause actually adversely affected the sentence he received.” Id. at 1221.
…
In his memorandum in support of his § 2255
motion, Petitioner relies heavily on the decision
in Descamps and appears to argue that he was

15a
sentenced based on crimes that no longer qualify as violent felonies. (Doc. 16 at 2, 14, 18, 24,
30, 31, and 35). However, that argument goes
to whether the sentencing court correctly relied on the enumerated crimes provision—not
to whether it relied on the residual clause. Petitioner cannot rely on Descamps in a second or
successive § 2255 motion. See In re Thomas,
823 F.3d 1345, 1349 (2016) (concluding that
Descamps did not announce a new rule of constitutional law as required under§ 2255); In re
Hires, 825 F.3d 1297, 1303 (11th Cir. 2016)
(“Descamps is not retroactive for purposes of a
second or successive§ 2255 motion.”).
(Doc. 26). Avery was directed to file a supplemental
memorandum (Id.).
In his supplemental memorandum, Avery conceded
that Beeman, if followed, precluded relief on his claim,
but urged that the case was incorrectly decided (Doc.
29 at 5).9 Avery further urged this Court to make a
finding that it had relied on the ACCA’s residual clause
to sentence him and to consider only a subset of his prior convictions as potential predicate felonies (Id.).
II. ANALYSIS
Though the Eleventh Circuit made a preliminary
determination that Avery raised a prima facie Johnson
claim, this was only a “threshold determination,” and
“does not conclusively resolve” whether his § 2255 motion actually satisfies the requirements of § 2255(h)(2)
(Cr. Doc. 108). This Court must still play a gatekeeping
9

On August 14, 2018, the Eleventh Circuit voted against
granting a rehearing en banc on Beeman. Beeman v. United
States, No. 16-16710, 2018 WL 3853960 (11th Cir. Aug. 14, 2018).

16a
role and determine whether Avery’s successive § 2255
motion is based upon “a new rule of constitutional law,
made retroactive to cases on collateral review by the
Supreme Court.” See § 2255(h)2); In re Chance, 831
F.3d 1335, 1338 (11th Cir. 2016). In other words, because Avery attempts to overcome § 2255(h)’s successiveness bar by contending that his motion is based on
“a new [retroactive] rule of constitutional law,” he must
show that his enhanced sentence was implemented under the ACCA’s residual clause.
a. Avery has not demonstrated that the Court
relied on the residual clause to sentence him
as an armed career criminal
Nothing in the record prior to Avery’s sentencing
hearing, in the sentencing hearing itself, or in the proceedings following Avery’s sentencing hearing establishes (or even suggests) that this Court relied upon the
ACCA’s residual clause when enhancing Avery’s sentence. See Beeman, 871 F.3d at 1221-22 (“To prove a
Johnson claim, the movant must show that—more likely than not—it was use of the residual clause that led to
the sentencing court’s enhancement of his sentence.”).
Avery has not cited, and this Court has not found, any
2005 (or earlier) caselaw holding or making it obvious
that a majority of his prior convictions qualified as violent felonies only under the ACCA’s residual clause.
See Beeman, 871 F.3d at 1214 (noting that Beeman “has
pointed to no precedent in 2009 holding, or otherwise
making obvious, that [his prior conviction] qualified as a
violent felony only under the residual clause.”). Moreover, this Court does not find that it relied on the ACCA’s residual clause when sentencing Avery.
A § 2255 movant cannot sustain his burden under
Johnson by demonstrating that it is “merely possible

17a
that the court relied on [the residual clause] to enhance
the sentence.” Beeman, 871 F.3d at 1221. Here the
record is silent, and “‘where ... the evidence does not
clearly explain what happened[,] ... the party with the
burden loses.’” Id. at 1225 (quoting Romine v. Head,
253 F.3d 1349, 1357 (11th Cir. 2001)). As a result,
Avery’s successive § 2255 motion collapses under the
holding in Beeman.
b. Avery qualifies as an armed career criminal
under the ACCA
Avery has sufficient qualifying predicate convictions under non-residual portions of the ACCA’s violent
felony definition to qualify as an armed career criminal.10 First, Avery’s 1987 Florida conviction for robbery with a firearm, is a violent felony under the ACCA’s elements clause because it has “as an element the
use, attempted use, or threatened use of physical force
against the person or property of another.” 18 U.S.C.
§ 924(e)(2)(B)(i). See United States v. Fritts, 841 F.3d
937, 944 (11th Cir. 2016) (recognizing that Eleventh
Circuit precedent and Florida Supreme Court opinions
establish that a pre-1997 Florida conviction for armed
10

Six potentially qualifying violent felonies were listed in
Avery’s PSI, and four qualifying violent offenses were listed in his
indictment. However, the Court specifically stated at sentencing
that it relied on Avery’s prior convictions for Georgia robbery,
Georgia burglary, and Florida armed robbery to qualify him as an
armed career criminal. Although Petitioner asserts otherwise,
this Court is not precluded from considering all of the qualifying
violent felonies listed in the PSI. Unlike the situation in United
States v. Canty, 570 F.3d 1251 (11th Cir. 2009)—the case on which
Petitioner relies—the government did not waive its reliance on the
facts set forth in the PSI, and, in fact, spent considerable effort to
show that Petitioner had been convicted of the predicate violent
felonies (Cr. Doc. Nos. 88, 89); See also United States v. Martinez,
606 F.3d 1303 (11th Cir. 2010) (limiting Canty to its specific facts).

18a
robbery qualifies as a violent felony under the ACCA’s
elements clause); United States v. Seabrooks, 839 F.3d
1326 (11th Cir. 2016); United States v. Lockley, 632 F.3d
1238 (11th Cir. 2011); United States v. Dowd, 451 F.3d
1244 (11th Cir. 2006).
Second, Avery’s 1978 Georgia conviction for armed
robbery also qualifies as a predicate violent felony under the elements clause of the ACCA. Avery asserts
that, at the time of his offense, the Georgia armed robbery statute provided that:
A person commits armed robbery when, with
intent to commit theft, he takes property of another from the person or the immediate presence of another by the use of an offensive
weapon.
(Doc. 16 at 33) (citing Code Ann. S. 26-1902 (Ga. L.
1968, ¶. 1249, 1298; 1969, p. 810; 1976, p. 1359)). Georgia
courts define an “offensive weapon” as “any object, device, or instrument which when used offensively
against a person is likely to or actually does result in
death or serious bodily injury.” Jackson v. State, 545
S.E.2d 148, 151 (Ga. App. 2001) (citing Georgia pattern
jury instructions). Use of an “offensive weapon” in
robbery then necessarily requires at least a threat of
violent physical force. See Sheely v. State, 650 S.E.2d
762,764 (Ga. App. 2007) (“[A] person commits the offense of armed robbery when, with intent to commit
theft, he or she takes property of another from the person or the immediate presence of another by use of an
offensive weapon. The element of use is present when
the victim is aware of the weapon and it has the desired
forceful effect of assisting to accomplish the robbery.”
(internal quotations omitted)); cf. Hicks v. State, 207
S.E.2d 30, 37 (Ga. 1974) (reversing armed robbery con-

19a
viction for taking billfold from sleeping victim, ruling
the statute “clearly contemplates that the offensive
weapon be used as a concomitant to a taking which involves the use of actual force or intimidation (constructive force) against another person”). Because the use of
the “offensive weapon” must induce the victim to relinquish possession, Georgia’s armed robbery statute has
“as an element the use, attempted use, or threatened
use of physical force against the person of another.”
18 U.S.C. § 924(e)(2)(B)(i). Avery committed the 1977
Georgia armed robbery by using a pistol to take a wallet containing $295.00 from the victim (Doc. 19-6 at 2;
PSI at ¶ 43). Therefore, the Court agrees with Respondent’s argument that Avery’s 1978 Georgia conviction for armed robbery is a qualifying conviction for enhancement under the elements clause of the ACCA.
See Walker v. United States, No. CV 316-052, 2017 WL
967369 (S.D. Ga. Mar. 10, 2017) (holding that Georgia
armed robbery is a violent felony under the elements
clause of the ACCA); Jackson v. United States, No.
3:16-cv-101-TCB, 2017 WL 9617005 (N.D. Ga. Oct. 16,
2017) (concluding that “armed robbery as defined by
Georgia’s statute qualifies as a predicate offense under
the ACCA’s elements clause”).
Finally, Avery’s 1978 Georgia conviction for burglary, in which Avery and an accomplice were convicted of entering a building and liquor storage room with
the intent to commit theft (Doc. 19-8 at 3; PSI at ¶ 45),
qualifies as a violent felony under the ACCA’s enumerated-offenses clause. See United States v. Adams,
91 F.3d 114, 116 (11th Cir. 1996) (holding that the defendant’s prior convictions under Georgia’s non-generic
burglary statute resulted from generic burglaries and,
thus, constituted burglaries under § 924(e)); United
States v. Cheney, 392 F. App’x 790, 793 (11th Cir. 2010)

20a
(because the PSI and the indictments for the defendant’s prior Georgia burglary conviction showed that the
defendant was charged with and found guilty of breaking into a residence with intent to commit theft, his
convictions under Georgia’s non-generic burglary statute were properly considered violent felonies under the
ACCA); United States v. Gundy, 842 F.3d 1156 (11th
Cir. 2016) (same).
Because Avery has three qualifying felonies under
non-residual portions of the ACCA, this Court declines
to consider the thornier issues of whether his Alabama
burglary convictions or Georgia robbery conviction also
qualified as ACCA violent felonies at the time of
Avery’s sentencing hearing.
III. CONCLUSION
Avery has not demonstrated that his designation as
an armed career criminal turned on the validity of the
residual clause. In addition, he had at least three qualifying violent felonies under other portions of the ACCA. To the extent Avery argues that his convictions no
longer qualify as violent felonies under the elements or
enumerated clauses of the ACCA, this is a claim pursuant to Descamps v. United States. See Beeman, 871
F.3d at 1220 (“a Descamps claim asserts that the defendant was incorrectly sentenced as an armed career
criminal under the elements or enumerated offenses
clause.”). Descamps is not retroactive for purposes of a
second or successive § 2255 motion. In re Hires, 825
F.3d 1297, 1303 (11th Cir. 2016). Thus, Avery is not entitled to relief pursuant to Descamps. See Oxner v.
United States, No. 16-17036, 2017 WL 6603584, at *3
(11th Cir. 2017) (“[A] Descamps claim cannot be raised
in a second or successive § 2255 motion.”).

21a
Avery has not met the statutory criteria of 28
U.S.C. § 2255(h) because the new rule of constitutional
law made retroactive by the Supreme Court in Johnson
does not apply to him, and his successive § 2255 motion
is dismissed.
Accordingly, it is hereby ORDERED AND ADJUDGED:
1. Avery’s Successive Motion to Vacate, Set
Aside, or Correct Sentence pursuant to 28 U.S.C.
§ 2255 (Doc. 1) is DISMISSED.
2. The Clerk of the Court shall enter judgment
accordingly and is directed to close this case.
3. The Clerk of the Court is directed to file a copy
of this Order in criminal case number 6:05-cr-144-Orl28KRS.
4. This Court should grant an application for certificate of appealability only if the Petitioner makes “a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). Petitioner has failed to
make a substantial showing of the denial of a constitutional right.11 Accordingly, a Certificate of Appealability is DENIED in this case.
DONE and ORDERED in Orlando, Florida on August 21, 2018.

11

Pursuant to the Rules Governing Section 2255 Proceedings
for the United States District Court, “[t]he district court must issue or deny a certificate of appealability when it enters a final order adverse to the applicant.” Rules Governing Section 2255 Proceedings for the United States District Courts, Rule 11(a).

22a
/s/ John Anton II
JOHN ANTON II
UNITED STATES DISTRICT JUDGE

Copies furnished to:
Counsel of Record
Unrepresented Parties
SA: OrlP-4

23a
APPENDIX C
RELEVANT STATUTORY PROVISIONS
18 U.S.C. § 924(e)
*

*

*

(e)(1) In the case of a person who violates section
922(g) of this title and has three previous convictions by
any court referred to in section 922(g)(1) of this title for
a violent felony or a serious drug offense, or both,
committed on occasions different from one another,
such person shall be fined under this title and imprisoned not less than fifteen years, and, notwithstanding
any other provision of law, the court shall not suspend
the sentence of, or grant a probationary sentence to,
such person with respect to the conviction under section 922(g).
(2) As used in this subsection—
(A) the term “serious drug offense” means—
(i) an offense under the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances Import and Export Act (21
U.S.C. 951 et seq.), or chapter 705 of title 46 for
which a maximum term of imprisonment of ten
years or more is prescribed by law; or
(ii) an offense under State law, involving
manufacturing, distributing, or possessing with
intent to manufacture or distribute, a controlled substance (as defined in section 102 of
the Controlled Substances Act (21 U.S.C. 802)),
for which a maximum term of imprisonment of
ten years or more is prescribed by law;

24a
(B) the term “violent felony” means any crime
punishable by imprisonment for a term exceeding
one year, or any act of juvenile delinquency involving the use or carrying of a firearm, knife, or destructive device that would be punishable by imprisonment for such term if committed by an adult,
that—
(i) has as an element the use, attempted
use, or threatened use of physical force against
the person of another; or
(ii) is burglary, arson, or extortion, involves
use of explosives, or otherwise involves conduct that presents a serious potential risk of
physical injury to another; and
(C) the term “conviction” includes a finding
that a person has committed an act of juvenile delinquency involving a violent felony.
*

*

*

25a
GA CODE § 26-1601 (1977)
§ 26-1601. Burglary
A person commits burglary when, without authority
and with the intent to commit a felony or theft therein,
he enters or remains within the dwelling house of another or any building, vehicle, railroad car, aircraft, watercraft, or other such structure designed for use as the
dwelling of another, or enters or remains within any
other building, railroad car, aircraft or any room or any
part thereof. A person convicted of burglary shall be
punished by imprisonment for not less than one nor
more than 20 years.

